August 24, 1999

BOB DAVIS
VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

MICHAEL JORDAN
DISTRICT MANAGER, SUNCOAST DISTRICT OFFICE

SUBJECT:	 Review of the Violence Prevention Program in the Suncoast District and
          the Impact on Workplace Climate and Operations
           (Audit Report Number ER-AR-99-002)

This report presents the results of a review of the violence prevention program in the
Suncoast District and the impact on workplace climate and operations (Project Number
99EA007ER000). This audit report is the first in a series from an ongoing review of
violence prevention efforts within the United States Postal Service (USPS), Southeast
Area.

On the basis of our review, we conclude that the potential for violence exists in the
Suncoast District facilities because District officials have not implemented effective
violence prevention and response programs. Although the Vice President for the
Southeast Area disagreed with our finding, the Suncoast District Manager advised us
that actions have been taken to implement our recommendations. Management’s
responses and our evaluation of these responses are attached to the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Chris Nicoloff,
Director, Labor-Management or me, at (703) 248-2300.


//Signed//
Billy Sauls
Assistant Inspector General
  for Employee

Attachment

cc: 	 Yvonne D. Maguire
      Anthony J. Vegliante
      Alan B. Kiel
      John R. Gunnels
Review of the Violence Prevention Program in the Suncoast District and the   ER-AR-99-002
 Impact on Workplace Climate and Operations


                                    TABLE OF CONTENTS
Part I
   Executive Summary
                                                            i
Part II
Introduction
    Background                                                                   
1
    Objectives, Scope and Methodology                                             2

Audit Results 

  Potential for Violence in the Workplace                                         5

  Implementation of Violence Prevention Program                                   5

      Violence Prevention Strategies                                              5

      Zero Tolerance Policy                                                       7

      Appropriate Safeguards                                                      8

      Safe and Healthy Workplace Environment                                     10 

      Threat Assessment Team Goals                                               12 

      Threat Assessment Team Primary Tasks                                       13 

      Threat Assessment Team Composition                                         14 

      Threat Assessment Team Orientation                                         14 

      Threat Assessment Team Process                                             15 

      Incident Response                                                          15 

      Measurement of Threat Assessment Team Performance                          16 

      Violence Awareness Training                                                16 

    Implementation of Crisis Management Plan                                     18 

       Crisis Management Team Member Assignments                                 19 

       Backup Crisis Management Plan for External Support                        20 

       Establishing and Equipping of a Crisis Command Center and                 20 

           Alternate Command Sites 

       Crisis Management Plans Available at Facilities                           21 

       Crisis Management Training and Preparedness Meetings                      21 

    Conclusion                                                                   22 

    Recommendations                                                              22 

    Management’s Response                                                        23 

    Evaluation of Management’s Response                                          24 

Exhibits
  Exhibit 1                                                                      27 

  Exhibit 2                                                                      27 

  Exhibit 3                                                                      28 

  Exhibit 4                                                                      28 





                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the   ER-AR-99-002
 Impact on Workplace Climate and Operations


    Exhibit 5                                                                    29 

    Exhibit 6                                                                    29 

    Exhibit 7                                                                    30 

Appendices
  Appendix A 
                                                                   31 

  Appendix B 
                                                                   32 

  Appendix C
                                                                    33 

  Appendix D                                                                     34 

  Appendix E                                                                     37 

  Appendix F                                                                     39 





                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the           ER-AR-99-002
 Impact on Workplace Climate and Operations


                                   EXECUTIVE SUMMARY
Introduction 	                 This audit report is the first in a series from an ongoing
                               review of violence prevention efforts within the United States
                               Postal Service (USPS). The Suncoast District, located in the
                               Southeast Area, was selected because of previous Office of
                               Inspector General (OIG) work conducted there. Our overall
                               objectives were to determine if the Suncoast District
                               consistently communicated and enforced USPS policies
                               regarding violent and inappropriate behavior in the
                               workplace, and the effect violence prevention activities have
                               on the workplace climate and operations.

Results In Brief	              On the basis of our review, we conclude that the potential for
                               violence exists in the Suncoast District facilities because
                               District officials have not implemented effective violence
                               prevention and response programs.

                               We found that the Suncoast District did not follow many of
                               the violence prevention policies and procedures outlined in
                               the May 1997 Threat Assessment Team Guide and the Crisis
                               Management Plan for Incidents of Violence in the Workplace.
                               We identified four deviations which could contribute to an
                               unhealthy work environment:

                               •	 There existed inconsistent communication and
                                  enforcement of USPS policies and procedures regarding
                                  violent and inappropriate behavior in the workplace.
                               •	 Violence prevention strategies, goals, tasks, processes,
                                  and performance measures were not followed.
                               •	 Violence prevention training for supervisors, managers,
                                  and craft employees were not provided.
                               •	 The Crisis Management Plan was not fully developed or
                                  implemented.

                               The District’s limited attention to violence prevention efforts
                               could adversely affect workplace climate and USPS
                               operations. Violence increases stress, inflicts emotional
                               wounds, and lowers employee morale. Organizationally, it
                               diminishes credibility, decreases productivity, creates work-
                               specific tension, and may lead to damage of property.




                                                     i
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the           ER-AR-99-002
 Impact on Workplace Climate and Operations


Recommendations                The Vice President, Southeast Area Operations, should
                               immediately require that:

                               1. The District and the Threat Assessment Team fully
                                  implement the USPS policies and procedures regarding
                                  violence in the workplace, paying particular attention to
                                  the Threat Assessment Team Guide.

                               2. The District’s Zero Tolerance Policy be revised to mirror
                                  the USPS Zero Tolerance Policy. This revised policy
                                  must be communicated to all employees and enforced
                                  consistently.

                               3. Security Control Officers conduct physical security
                                  reviews of all District facilities as required by the
                                  Administrative Support Manual.

                               4. Attendance at violence awareness training for all craft
                                  employees, supervisors, and managers be mandatory.

                               5. The District and the Crisis Management Team fully
                                  implement the policies and procedures outlined in the
                                  Crisis Management Plan for Incidents of Violence in the
                                  Workplace.

                               6. A review be conducted of the events surrounding the two
                                  threats made by employees, as outlined in this report.
                                  The purpose of the review is to determine that the
                                  employees involved do not pose a potential threat to the
                                  workplace and other employees.

                               7. District management review the responses to all threat
                                  incidents made to the Threat Assessment Team to ensure
                                  that future recommendations made by Threat
                                  Assessment Team members are acted upon immediately.

Summary of                     The Area Vice President for the Southeast Area did not
Management’s                   agree with the OIG conclusion that the potential for violence
Response                       exits in the Suncoast District facilities. He stated “There is no
                               valid nexus between the two to justify this conclusion.” He
                               agreed, however, that limited violence prevention efforts
                               could adversely affect workplace climate.




                                                     ii
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the           ER-AR-99-002
 Impact on Workplace Climate and Operations


                               The Vice President also did not agree there was a mandatory
                               requirement for attendance at violence awareness training for
                               all craft employees, supervisors, and managers. He stated,
                               however, that the Southeast Area is committed to the
                               appropriate implementation of the policies and procedures
                               regarding violence prevention.

                               The Suncoast District Manager responded to all of the OIG
                               recommendations and told us that significant action has been
                               taken to implement the recommendations.

                               We have summarized management’s responses in the report
                               and included the full text of the comments in Appendices D,
                               E, and F.

Evaluation of                  Although the Vice President for the Southeast Area did not
Management’s                   agree with our overall finding, we believe that the District’s
Response                       planned or implemented actions are responsive to the
                               recommendations and address the issues identified in this
                               report.




                                                     iii
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the          ER-AR-99-002
 Impact on Workplace Climate and Operations


                                         INTRODUCTION
Background                     The USPS is responsible for ensuring the safety of its
                               employees by creating and maintaining a work environment
                               that is violence-free. It has embraced the concept that a
                               viable workplace violence prevention program is the first step
                               in helping to ensure a violence-free workplace. It recognizes
                               that such a program depends on a universal zero tolerance
                               policy and a zero tolerance action plan that is consistently
                               implemented for the management of threats, assaults, and
                               other inappropriate workplace behavior.

                               In responding to the need for a violence prevention program,
                               the USPS established several initiatives and strategies to
                               prevent and minimize the potential risk for violence in the
                               workplace. These initiatives are implemented throughout the
                               USPS from the headquarters to Postal facilities in the field.

                               In December 1997, the Deputy Postmaster General directed
                               USPS Headquarters to reevaluate existing systems and
                               strategies designed to prevent workplace violence. This
                               directive responded to the shooting at the Milwaukee
                               Processing and Distribution Center and the hostage situation
                               at the Denver General Mail Facility, both of which occurred in
                               December 1997. The responsibility for reevaluation was
                               assigned to the newly established Headquarters Crisis
                               Management Systems and Process Team.

                               The USPS initiated several other actions to address
                               workplace violence. It created the National Security
                               Committee to review physical security issues, including
                               security hardware, staffing, and procedures. It chartered the
                               External Climate Review to provide an independent
                               assessment of the workplace climate. Further, it tasked the
                               Headquarters Threat Assessment Team to develop and
                               maintain a process for alerting managers, at all levels, of the
                               issues that could negatively impact the workplace climate.

                               The USPS Administrative Support Manual requires Security
                               Control Officers or their designees to conduct annual
                               physical security reviews at all facilities.

                               In May 1997, USPS Headquarters published the Threat
                               Assessment Team Guide, Publication 108, and Crisis
                               Management Plan for Incidents of Violence in the Workplace,
                               Publication 107, for District implementation. These


                                                     1
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the          ER-AR-99-002
 Impact on Workplace Climate and Operations


                               guidelines require the districts to develop appropriate Threat
                               Assessment and Crisis Management Teams, and team plans
                               of operation.

                               The Threat Assessment Team Guide assists the Threat
                               Assessment Team in responding to and assessing the
                               seriousness of violent and potentially violent situations. The
                               Guide includes violence prevention strategies, goals, and
                               tasks; and provides information on the Threat Assessment
                               Team, processes, measurements of team performance, and
                               the education and training of employees about violence
                               prevention. In addition, the Guide establishes a zero
                               tolerance policy that states that each and every violent act, or
                               threat of violence, will elicit an immediate and firm response,
                               which could involve discipline up to and including removal.

                               The Crisis Management Plan for Incidents of Violence in the
                               Workplace provides guidance on how to respond to a work
                               disruption due to an incidence of violence. It provides a
                               model of a plan to delegate specific roles and responsibilities
                               for dealing with a violent crisis; provides for the care and
                               support of victims and their families; and establishes an
                               orderly return to normal operations. It defines an act of
                               violence as a suicide, homicide, assault, or hostage taking.
                               The plan also provides information on how to complete a
                               post-crisis evaluation.

Objectives, Scope              Our overall objectives were to determine: (1) if the Suncoast
And Methodology                District consistently communicated and enforced USPS
                               policies regarding violent and inappropriate behavior in the
                               workplace, and (2) the effect violence prevention activities
                               have on the workplace climate and operations. The specific
                               objectives were to determine whether the District:

                               •	 complied with USPS policies and procedures regarding
                                  the prevention of violence in the workplace;
                               •	 maintained a zero tolerance policy to minimize potential
                                  threats to safety;
                               •	 created and implemented crisis management plans; and
                               •	 created and maintained a work environment perceived as
                                  fair and free from unlawful and inappropriate behavior.




                                                     2
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                   ER-AR-99-002
 Impact on Workplace Climate and Operations


                               We reviewed applicable statutes, regulations, policies,
                               procedures, climate studies, and other documents, such as
                               the Threat/Assault Incident Report Investigative worksheet
                               reports. We reviewed United States General Accounting
                               Office (GAO) reports related to labor-management issues.
                               We interviewed USPS officials at the District, Area and
                               Headquarters level to obtain information about the USPS
                               workplace environment, and the procedures and policies
                               implemented to ensure a safe and violence-free workplace.

                               To determine the District’s compliance with policies and
                               procedures, we reviewed the District’s Threat Assessment
                               Team activities, zero tolerance policy, and Crisis
                               Management Plan. We compared the activities, policy, and
                               plan to the USPS criteria regarding violence prevention
                               strategies. We also reviewed the District’s initiatives for
                               addressing workplace environmental climate issues,
                               including training programs on violence prevention.

                               We reviewed summary data concerning employee
                               grievances, Equal Employment Opportunity complaints, and
                               Employee Assistance Program opened cases for all Districts
                               in the Southeast Area, including Suncoast, for all or part of
                               the period of June 1997 through December 1998.1 We
                               analyzed the data to determine whether facilities in the
                               District had been identified as having hostile work
                               environments according to the Threat Assessment Team
                               Guide, Publication 108. We also assessed data to determine
                               trends in the District and how those trends compared to other
                               districts within the Southeast Area. We also reviewed results
                               from the 1998 and 1999 Voice of the Employee surveys
                               conducted in the District.

                               We used statistical sampling methodologies to select 60
                               District facilities for review (see Appendix A). This sample
                               was used to determine if annual physical security reviews
                               had been conducted at the District facilities and if the
                               facilities had copies of the District’s Crisis Management Plan
                               (see Appendices B and C, respectively).




1
 This audit period was selected because the Threat Assessment Team Guide and Crisis Management Plan Guide
were not published until May 1997.



                                                     3
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the       ER-AR-99-002
 Impact on Workplace Climate and Operations


                               This audit was conducted from January through June 1999 in
                               accordance with generally accepted government auditing
                               standards and included such tests of internal controls, as we
                               considered necessary under the circumstances. We
                               discussed our conclusions and observations with appropriate
                               management officials and included their comments, where
                               appropriate.




                                                     4
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the           ER-AR-99-002
 Impact on Workplace Climate and Operations


                                        AUDIT RESULTS
Potential for Violence         On the basis of our review, we believe the potential for violence
in the Workplace               exists in the Suncoast District facilities. The Threat Assessment
                               Team Guide and Crisis Management Plan for Incidents of
                               Violence in the Workplace clearly outline USPS policies and
                               procedures for creating and maintaining a safe work
                               environment. These guidelines have not been followed by the
                               Suncoast Threat Assessment and Crisis Management Teams.

                               Districts that do not comply with these guidelines face a potential
                               for violence in their facilities. Such violence increases stress,
                               inflicts emotional wounds, and lowers employee morale.
                               Organizationally, it diminishes credibility, decreases productivity,
                               creates work-specific tension, and may lead to damage of
                               property.

Implementation of              The District’s Acting Manager, Human Resources, did not
Violence Prevention            implement an effective violence prevention program because
Program                        District management did not consider the Threat Assessment
                               Team process as a priority and because they considered it an
                               informal process. Specifically, we found:

                               •	 three of the six violence prevention strategies were not fully
                                  implemented;
                               •	 four of the five Threat Assessment Team goals were not
                                  achieved;
                               •	 two of the three primary Threat Assessment Team tasks
                                  were not accomplished;
                               •	 seven of the eight Threat Assessment Team processes were
                                  not followed;
                               •	 Threat Assessment Team performance was not measured;
                                  and
                               •	 violence awareness training was not provided for all
                                  supervisors, managers, and craft employees.

Violence Prevention            The Threat Assessment Team Guide outlines six organizational
Strategies                     strategies for reducing workplace violence as follows:

                               •	 hiring the right people for the right job in the first place;
                               •	 ensuring appropriate safeguards for people and property;
                               •	 consistently communicating and enforcing Postal policy
                                  regarding violent and inappropriate behavior;
                               •	 creating a safe and healthy work environment;




                                                     5
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                           ER-AR-99-002
 Impact on Workplace Climate and Operations


                                 •	 providing employee support in dealing with problems at work
                                    and home; and
                                 •	 safely separating employees from employment.

                                 According to a District Human Resources Specialist and the
                                 Employee and Workplace Intervention Analyst, the District is
                                 implementing the violence prevention strategies relating to
                                 employee selection, employee support, and involuntary
                                 separation.2 For example, the Human Resources Specialist told
                                 us that the District follows an in-depth pre-employment
                                 screening process including interviewing applicants; obtaining
                                 key documents from applicants; and obtaining background and
                                 reference checks, drug tests, and medical exams on all job
                                 candidates tentatively selected for employment. Further, the
                                 District Employee and Workplace Intervention Analyst told us
                                 that the District does a lot of marketing to let employees know of
                                 the resources available to assist them in dealing with the
                                 problems of work and at home.

                                 Additionally, the Human Resources Specialist said that by
                                 providing official discussions and letters of warning and
                                 suspensions for poor performers, as well as referrals to the
                                 Employee Assistance Program, the District affords poor
                                 performers with opportunities to improve. In the event that an
                                 employee must be separated, supervisors pay attention to the
                                 separated employee’s attitude to ensure no apparent threat
                                 exists.

                                 Our audit disclosed that Suncoast District officials did not fully
                                 implement the remaining three violence prevention strategies.
                                 Specifically, officials did not:

                                 •	 publish, communicate, and enforce an adequate zero
                                    tolerance policy;
                                 •	 ensure appropriate safeguards were provided for people and
                                    property; and
                                 •	 conduct required assessments to assure that they had
                                    created and were maintaining a safe and healthy workplace
                                    environment.




2
 Since we will be reviewing these three processes in separate audits scheduled for fiscal year (FY) 2000, we did not
verify nor validate that these three processes were being accomplished as indicated by District officials.



                                                         6
                                            Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the           ER-AR-99-002
 Impact on Workplace Climate and Operations


Zero Tolerance Policy          The USPS Joint Statement on Violence and Behavior in the
                               Workplace, and the Threat Assessment Team Guide states that
                               each and every act or threat of violence, regardless of the
                               initiator, will elicit an immediate and firm response, including
                               discipline up to the removal of an employee. Zero tolerance is
                               based on the belief that no employee should have to work in an
                               atmosphere of fear and intimidation that results when threats
                               and inappropriate behavior remains unaddressed. It further
                               states that all employees deserve a safe work environment.

                               We found that the Suncoast District did not publish,
                               communicate, nor enforce an adequate zero tolerance policy.
                               Specifically, the existing policy did not contain a statement that
                               there would be no tolerance for persons who committed violent
                               acts in the workplace. In addition, it did not provide definitions of
                               a threat or assault to help employees understand and clarify
                               when a threat, assault, or other acts of workplace violence had
                               occurred. The policy also did not include the consequences
                               when an employee made a threat or assaulted another
                               employee.

                               The District’s Senior Labor Relations Specialist stated that the
                               reason the term “zero tolerance” was not defined in the District
                               policy is because the Merit Systems Protection Board did not
                               recognize “zero tolerance” as a basis to remove employees from
                               their employment with the USPS.

                               We reviewed 24 documented threats where it appears that the
                               USPS zero tolerance policy was not followed. For example, we
                               found two incidents where the District did not enforce the USPS
                               zero tolerance policy.

                               In the first incident, a Postal employee commented to another
                               employee, “Don’t be surprised if you see Placida Post Office on
                               TV” and “I’ve got an AK-47.” The employee hearing the
                               comments felt threatened and uncomfortable and reported the
                               incident to management. The Employee and Workplace
                               Intervention Analyst recommended to the Postmaster that the
                               employee who made the comments be put on administrative




                                                     7
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                             ER-AR-99-002
 Impact on Workplace Climate and Operations


                                  leave and that a Threat/Assault Incident Report3 be completed.
                                  The Postmaster requested that the Postal Inspection Service
                                  conduct an investigation. After their investigation, Postal
                                  Inspectors reported that the employee needed to be referred to
                                  the Employee Assistance Program. Neither the Employee and
                                  Workplace Intervention Analyst nor the Postal Inspectors
                                  followed up to ensure that the employee actually received
                                  assistance. However, the Postmaster did refer the employee to
                                  the Employee Assistance Program. The District did not follow
                                  up to see if the employee needed additional assistance or if the
                                  employee’s behavior had improved.

                                  In the second incident, an employee shouted obscenities at
                                  another employee and also told him that he would “bury” him.
                                  The employee making the threat then removed his right shoe
                                  and began banging it on a metal shelf. The Employee and
                                  Workplace Intervention Analyst was contacted and she
                                  suggested that the Postmaster conduct mediation between the
                                  two employees. The Postmaster declined the suggestion. An
                                  investigation of this incident by the Postal Inspection Service
                                  disclosed that the threatener suffered from stress, and
                                  management should take administrative action to help the
                                  employee with his problem. This, however, was not done.

                                  To effectively communicate the zero tolerance policy, the District
                                  needs to clarify definitions and consequences so that all
                                  employees fully understand the policy and its potential
                                  ramifications. We believe managers must reinforce the policy by
                                  consistently applying it to employees who violate it, and by
                                  holding employees accountable for their actions. This is
                                  especially true in those instances where one employee is
                                  verbally abusing or physically touching another, in an aggressive
                                  or angry manner.

Appropriate 	                     The USPS Administrative Support Manual provides the primary
Safeguards 	                      criteria that a physical security survey be conducted at all USPS
                                  facilities. These surveys are to be conducted by the Security
                                  Control Officer or designee on an annual basis. The Security
                                  Control Officer is to submit a copy of the completed survey and
                                  notes for corrective action to the designated Inspection Service
                                  liaison. Survey results are to be maintained at the facility for two
                                  years.

3
  The Suncoast District uses a Threat/Assault Incident Report Investigative worksheet to document the occurrence of
a threat or assault. It includes sections covering general information, employees involved, investigative information,
situation status, and is signed by the completing official.



                                                         8
                                            Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                             ER-AR-99-002
 Impact on Workplace Climate and Operations


                                  The Suncoast District did not ensure appropriate safeguards
                                  were provided for people and property because they did not
                                  perform all the required annual physical security reviews. We
                                  project that the Suncoast District conducted annual physical
                                  security reviews in fiscal year (FY) 1997, for approximately 11
                                  (5 percent) of the 217 facilities; and in FY 1998, for
                                  approximately 65 (30 percent) of the 217 facilities.4 It was also
                                  noted in a Postal Inspection Service Report,5 that at 21 facilities
                                  reviewed, 57 percent did not complete required annual security
                                  surveys to detect security weaknesses. Although Suncoast
                                  District was not included in this review, recommendations were
                                  made to USPS headquarters’ management to ensure
                                  compliance with security regulations.

                                  The District Security Control Officer cites several factors for the
                                  lack of physical security reviews:

                                  •	 Security Control Officers and management were unaware of
                                     the criteria requiring such reviews. This was due in part to
                                     the fact that Security Control Officer training was provided for
                                     only the larger facilities (those with 26 or more employees).

                                  •	 Lack of monitoring by the District of these reviews, because
                                     the District Security Control Officer thought that the
                                     Inspection Service was conducting the monitoring.

                                  •	 Copies of survey forms were not provided to all facilities by
                                     District management or Postal Inspection Service officials.

                                  •	 The ad hoc nature of the Security Control Officers’ duties
                                     resulted in these duties not receiving priority treatment.

                                  As a result of our audit, the District Security Control Officer told
                                  us that he has sent all facilities copies of the annual physical
                                  security review survey forms for completion.




4
  We conducted a random sample review of 60 of 217 facilities in the Suncoast District. The 217 facilities included all
post offices, stations, branches and postal stores. The processing and distribution centers are not included in the
projection.
5
  National Coordination Audit – “Security,” September 1998, Case No. 022-1223635-PA(1), United States Postal
Inspection Service.



                                                         9
                                            Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                        ER-AR-99-002
 Impact on Workplace Climate and Operations


                                We believe the facilities that did not conduct security reviews
                                face a risk of workplace violence. We also believe the lack of
                                security reviews could result in a loss or destruction of USPS
                                property. Appendix B is a summary schedule reflecting the
                                annual security reviews that were conducted in Suncoast District
                                facilities during FYs 1997 and 1998.

Safe and Healthy                The Threat Assessment Team Guide states that it is imperative
Workplace                       for the Threat Assessment Team to evaluate work climate issues
Environment                     and potential contributing events that may escalate the potential
                                for violence. The Guide provides a list of environmental and
                                societal factors that are relevant for review when making such
                                determinations. These include Equal Employment Opportunity
                                complaints, Employee Assistance Program contacts, and labor-
                                management relations.

                                According to the Acting Manager, Human Resources, the District
                                has not evaluated work climate issues and potential contributing
                                events that could contribute to the potential for violence in the
                                workplace. Our review of four of the potential violence indicators
                                showed there are facilities in the District where violence could
                                occur. These four indicators are employee grievances, Equal
                                Employment Opportunity complaints, Employee Assistance
                                Program “opened” cases, and results of various organizational
                                climate assessments.

                                Compared to the other eight districts within the Southeast Area,
                                the Suncoast District had relatively high numbers in three of the
                                four indicators. Specifically, we found:

                                •	 In FY 1998,6 the District had the highest overall ratio of
                                   grievance appeals to employee of 37 to 100 for Step 3
                                   appeals (see Exhibit 1). Additionally, the District had the
                                   highest ratio of contractual-related appeals, totaling 33 to 100
                                   (see Exhibit 2). In a 1998 GAO report,7 union and
                                   management officials did not dispute that the total volume of
                                   grievances to employees—a ratio of 13 to 100—was too
                                   high.




6
  We used only FY 1998 grievance data because subsequent data was not readily available at either the Postal 

Service or Office of Inspector General during the audit. 

7
  “U.S. Postal Service Little Progress Made in Addressing Persistent Labor-Management Problems,” October 1997, 

GAO/GGD-98-1.




                                                       10
                                          Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                           ER-AR-99-002
 Impact on Workplace Climate and Operations


                                      The District also had the second highest ratio of 4 to 100 for
                                      discipline-related grievance appeals to employees (see
                                      Exhibit 3).

                                 •	 Between June 1, 1997, and December 31, 1998, the District
                                    had the second highest ratio of 1 to 23 of Equal Employment
                                    Opportunity formal complaints to employees in the Southeast
                                    Area (see Exhibit 4).

                                 •	 For the period July 1997 through November 1998,8 the
                                    District had the third highest ratio—1 to 16—of opened
                                    Employee Assistance Program cases per employee (see
                                    Exhibits 5 and 6).

                                 •	 Additionally, we noted that almost one-third of the employees
                                    responding to the 1998 and about one-fourth of the
                                    employees responding to the 1999 Voice of the Employee
                                    surveys provided unfavorable responses. Specifically, 31
                                    percent in 1998 and about 27 percent in 1999 responded
                                    unfavorably (see Exhibit 7).9

                                 It should be noted, however, that almost 50 percent of the
                                 employees in the Suncoast District who responded10 to the 1998
                                 and 1999 Voice of the Employee surveys provided favorable
                                 responses. We view this as a strong indicator that those
                                 employees are satisfied with their work environment (see
                                 Exhibit 7).

                                 In addition, we found indicators that some improvements have
                                 been made in the area of labor management. For example,
                                 according to the District Senior Labor Relations Specialist and
                                 USPS documents, the District’s participation in the grievance
                                 “blitz” program11 resulted in a significant improvement in

8
  We did not include data on opened Employee Assistance Program cases per employee for June 1997 because the
data is reported by Federal fiscal quarter, and the third quarter for Fiscal Year 1997 included April and May 1997,
both of which are not in our audit period. We excluded similar data for December 1998 because it was not yet
available from the U.S. Department of Health and Human Services, Federal Occupational Health, who provides the
summary reports for the Employee Assistance Program statistics to the Postal Service.
9
  We were unable to access this data for each of the facilities in the Suncoast District because, according to the
USPS Voice of the Employee Program Manager, no report was prepared for the facility level in FY 1998. Only one
survey was conducted for the fiscal year, because, at that point, all employees in each facility would have had an
opportunity to respond to the survey at some time during the year.
10
   For the FY 1998 survey, of the 5,400 surveys delivered, 3,003 employees (56 percent) responded to the survey.
For the FY 1999 survey, of the 2,013 surveys delivered, 1,247 employees (62 percent) responded to the survey.
11
   This process is an expedited system for settling American Postal Workers Union grievances. A panel of arbitrators
(usually three members) comes to the District every third week of the month for three days. Each arbitrator hears a
minimum of six cases per day, with up to 100 cases heard collectively over the three-day period.



                                                        11
                                           Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the        ER-AR-99-002
 Impact on Workplace Climate and Operations


                               reducing the numbers of grievances at the Step 3 process level.
                               Specifically, in FY 1998, approximately 1,000 Step 3 grievances
                               were removed from the pending arbitration list. During the first
                               four months of FY 1999, more than 700 cases were removed
                               from the list.

                               The District has also developed a union/management
                               communications team to enhance communications between
                               craft employees and management.

                               Although the indicators outlined above cannot be the sole basis
                               for reaching conclusions concerning the District’s workplace
                               environment, we believe that enough indicators exist to suggest
                               there is a potential for violence. The District must assess and
                               consider these potential violence indicators when determining
                               the risk for violence in the workplace. Without such
                               assessments and consideration, the District can offer no
                               assurance that it provides a safe and healthy workplace, and is
                               thus placing its employees at risk.

Threat Assessment              The Threat Assessment Team Guide requires the team to
Team Goals                     accomplish five goals that include the following:

                               •	   identify threateners;
                               •	   assess the risk posed by the threats;
                               •	   engage in case management;
                               •	   contribute toward a safe workplace for employees; and
                               •	   contribute to the reduction of inappropriate behavior in the
                                    workplace.

                               We found that the Suncoast District Threat Assessment Team
                               had only partially achieved one of the five goals outlined in the
                               Threat Assessment Team Guide. Specifically, the District
                               completes a Threat/Assault Incident Report Investigative
                               worksheet when a threat is reported. Threateners are identified
                               on the worksheets. Our review of these worksheets showed that
                               the District had documented 24 threats on their Threat/Assault
                               Incident Report Investigative worksheet. Of those 24 threats,
                               the District referred only two to Postal Inspectors for
                               investigation.

                               However, further review of the Inspection Service threat reports
                               showed that 48 employee-related threats had been investigated
                                                            12




                                                     12
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                            ER-AR-99-002
 Impact on Workplace Climate and Operations


                                  during the same period.12 This is more than double the number
                                  of threats recorded by the District. Although the Inspection
                                  Service does not provide the District with an action plan, the
                                  District is provided a detailed investigation report to follow up
                                  with some type of action.

                                  The District’s lack of effort to consistently document and deal
                                  with threats could result in:

                                  •	   possible threats of violence being unrecognized;
                                  •	   an increase in the potential for violence;
                                  •	   an unsafe workplace environment; and
                                  •	   violations of the USPS zero tolerance policy.

                                  According to the District’s Acting Manager, Human Resources,
                                  failure to meet the remaining four goals was due to Threat
                                  Assessment Team members relying on verbal/telephone
                                  communications when conveying information about alleged
                                  threats instead of following the requirements outlined in the
                                  Guide.

                                  Failure to assess the risk posed by the threats and to engage in
                                  case management contributes toward an unsafe workplace for
                                  employees and the increase in inappropriate behavior in the
                                  workplace—the opposite of the Threat Assessment Team’s
                                  intention.

Threat Assessment                 The Threat Assessment Team Guide requires that three primary
Team Primary Tasks                tasks be accomplished when managing threats in the workplace.
                                  These consist of:

                                  •	 identifying threateners, including the environmental and
                                     societal factors and contributing events;
                                  •	 assessing the risk level of the situation or incident; and
                                  •	 recommending a risk abatement plan for managing an
                                     identified situation or incident, with a primary focus on
                                     reduction of risk and liability.




12
  Of the 76 total threats documented in Inspection Service threat reports, there were 28 customer-related threats.
The remaining 48 were employee-related.



                                                         13
                                            Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                            ER-AR-99-002
 Impact on Workplace Climate and Operations


                                 As noted above, the District’s Threat Assessment Team did not
                                 identify all threateners. Also, it did not identify the
                                 environmental13 and societal factors and contributing events.14

                                 According to the Acting Manager, Human Resources, the team
                                 did not follow-up on threats made by individuals because, as
                                 previously indicated, the Threat Assessment Team members
                                 relied on verbal/telephone communication when conveying
                                 information about alleged threats instead of following the
                                 requirements outlined in the Guide. Not accomplishing these
                                 tasks increases the risk of violence in the workplace and any
                                 liabilities that could result from potential violence.

Threat Assessment                The Guide outlines the Threat Assessment Team’s composition
Team Composition                 and duties. Specifically, core membership must include the
                                 District’s Human Resources Manager or designee, Senior Labor
                                 Relations Specialist, Medical Director or Occupational Health
                                 Nurse Administrator, Employee and Workplace Intervention
                                 Analyst, District Manager or designee, and Lead Plant Manager
                                 or designee.

                                 We found that the District Threat Assessment Team was
                                 comprised of the appropriate core members, and that team
                                 members were knowledgeable of their perspective roles as
                                 required by the Guide. However, the roster needed to be
                                 updated with names of current staff members. According to the
                                 District Manager, the roster had not been updated because he
                                 just had not gotten around to it.

Threat Assessment                The Guide also requires that all core Threat Assessment Team
Team Orientation                 members and Postal Inspectors receive a 2-day orientation.
                                 This training is to make each participant aware of the USPS
                                 commitment to a strategic plan for reducing violence in the
                                 workplace, the USPS approach to the Threat Assessment Team
                                 process, and the importance of implementing a local Threat
                                 Assessment Team.

                                 We found that only two Threat Assessment Team members had
                                 received the Threat Assessment Team orientation training—the
                                 Acting Manager, Human Resources and the Senior Labor
13
   Some of the environmental factors to be evaluated include the condition of labor-management relations, ineffective
communications, numbers of Equal Employment Opportunity complaints, grievances, and accidents, employee
perceptions, and changes in management style.
14
   The societal factors to be considered are community violence levels, local news coverage of violent events, and
community activity of violent groups. Contributing events to be considered include a pending divorce, financial or
legal problems, and perceived or pending job suspension or termination.



                                                         14
                                            Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the          ER-AR-99-002
 Impact on Workplace Climate and Operations


                               Relations Specialist. The Employee and Workplace Intervention
                               Analyst told us that she had requested the training, but was
                               denied. Although other team members attended a 2-day Threat
                               Assessment Team course held in July 1998, the Acting
                               Manager, Human Resources realized that this training could not
                               be substituted for the orientation training. This training was not
                               limited to the Threat Assessment Team members, but was
                               offered to top officials throughout the Suncoast District.

Threat Assessment              The Threat Assessment Team Guide requires that the District’s
Team Process                   Threat Assessment Team meet at least quarterly to review
                               cases and educate team members. The Guide states that
                               during these meetings, the team will conduct case management
                               and determine what is to be done, by whom, when, the time
                               frame for completion, and the time frame for reporting updates.
                               In addition, it provides that monitoring of environmental factors at
                               identified work sites be discussed. This information is to help
                               the team better understand a pattern of behavior and/or events.

                               The Guide also requires that minutes of the meetings are kept,
                               and that they include risk assessment findings on each case
                               discussed, risk priority ratings assigned, and risk abatement
                               actions.

                               According to the Acting Manager, Human Resources, the team
                               did not meet quarterly, and thus the activities outlined above
                               were not conducted.

                               He also told us that there is no follow-up to threats made by
                               individuals. However, he said that if an employee becomes a
                               repeat threatener, the employee would receive disciplinary
                               action.

Incident Response              The District’s Threat Assessment Team did not follow seven of
                               the eight required steps when responding to an incident or
                               situation. The Guide provides that the team: (1) notify the
                               appropriate people; (2) make assignments; (3) collect
                               information; (4) make a background inquiry; (5) review and
                               analyze the case; (6) make a final assessment; (7) develop a
                               risk abatement plan; and (8) follow up.




                                                     15
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the          ER-AR-99-002
 Impact on Workplace Climate and Operations


                               Although the District notified the appropriate people, which is the
                               first step in the process, the District did not always complete the
                               Threat/Assault Incident Report Investigative worksheet.
                               According to the Lead Plant Manager, in some cases, the
                               situation is resolved locally by separating the employees and by
                               conducting mediation with union representatives. In these
                               situations a worksheet is not completed and the situation does
                               not necessarily require follow-up.

                               Failure to document and follow up on violent incidents in the
                               workplace contributes to the likelihood for future violence in
                               the workplace.

Measurement of                 The District's Threat Assessment Team did not establish
Threat Assessment              performance measures as required by the Guide.
Team Performance               Performance measures help reduce the risk of violence in the
                               workplace because they provide information that enables
                               management to implement violence prevention programs
                               based on the needs of the District. These measures include
                               surveys, the compilation of information concerning numbers
                               and types of threats and assaults, a tracking system, and a
                               post-incident analysis of each violent incident. Without this
                               information, the District cannot know how effective it has been
                               in addressing violence-in-the-workplace issues.

Violence Awareness             The Threat Assessment Team Guide states that every
Training                       manager and supervisor should complete eight hours of
                               workplace violence awareness program training. Additionally,
                               each should complete four hours of follow-up training on such
                               topics as defusing a difficult situation, providing effective
                               supervision, managing change, managing anger, managing
                               troubled employees, and motivating employees. Further, the
                               Guide states that it is equally important that all employees be
                               made aware of the existence of their local Threat Assessment
                               Team and the local systems and processes put in place to
                               support zero tolerance.

                               The workplace violence awareness training conducted for
                               Suncoast District has consisted of:

                               •	 a condensed four-hour workplace violence awareness
                                  training course primarily for managers and supervisors;
                               •	 a one-hour video, or portions thereof, available to all
                                  employees;




                                                     16
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                               ER-AR-99-002
 Impact on Workplace Climate and Operations


                                   •	 team training of Threat Assessment and Crisis
                                      Management Team members for managers and
                                      supervisors on the teams;
                                   •	 an introduction to workplace violence awareness for new
                                      employees;15
                                   •	 stand-up sessions on a recurring basis for all employees at
                                      the District’s facilities; and
                                   •	 television displays concerning workplace violence, which
                                      are shown at the facilities to be viewed by all employees.

                                   The workplace violence awareness training conducted for
                                   District managers and supervisors during our audit period did
                                   not meet the Threat Assessment Team Guide criteria. The
                                   District did not conduct the eight-hour workplace violence
                                   awareness course as required by the Guide. It also did not
                                   conduct the condensed workplace violence awareness course
                                   it had used in FY 1996. We found that of the 981 managers
                                   and supervisors assigned to the District during our audit
                                   period,16 approximately 140 attended one of the one-hour
                                   video sessions, or portions thereof, during the period.
                                   Further, we determined that during this period, of the 981
                                   managers and supervisors, approximately 190 (about 19
                                   percent) attended the four-hour follow-up training required by
                                   the Guide.

                                   In a previous OIG audit,17 USPS management agreed to
                                   mandate violence awareness training for all craft employees,
                                   supervisors, and managers. We found that workplace
                                   violence awareness training has not been provided to all craft
                                   employees in the Suncoast District. Out of over 12,00018 craft
                                   employees assigned to the District during our audit period, we
                                   determined that only about 270 (around two percent) attended
                                   the one-hour video sessions or portions thereof, and only
                                   about 40 attended one of the four-hour follow-up training
                                   courses.


15
   This number is approximate because the data provided on an additional 40 former employees who had attended
this training during this period did not identify the former employees by position.
16
   Our analysis did not include attendance at workplace violence awareness training programs by 204b’s (acting
supervisors). According to the Acting Manager, Human Resources, these acting supervisors may serve in such a
capacity for less than a day, and therefore no list is maintained for those serving in that capacity. He stated that the
District attempts to send acting supervisors to such training if they are serving in such positions when the training is
conducted.
17
   “U.S. Postal Service Office of Inspector General, Violence Prevention Policies and Procedures, Milwaukee District
Compliance,” September 30, 1999, LM-AR-98-002.
18
   This is the average craft employee population during our audit period.



                                                          17
                                             Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                       ER-AR-99-002
 Impact on Workplace Climate and Operations



                                In total, we determined that during our audit period,
                                approximately 410 employees, or about three percent, of over
                                13,000 total District employees attended one of the one-hour
                                video training sessions (or portions thereof), and
                                approximately 230, or about two percent, attended four-hour
                                follow-up courses.

                                However, we did note that the District had conducted more
                                extensive workplace violence awareness training prior to our
                                audit period. In FY 1996, the District provided a condensed
                                four-hour version of the eight-hour workplace violence
                                awareness training course required by the Guide. Of the 981
                                managers and supervisors assigned to the District during our
                                audit period, we determined that approximately 720 (73
                                percent)19 attended this condensed four-hour course. We
                                also noted that from the beginning of FY 1996 to the
                                beginning of our audit period, approximately 760 (77 percent)
                                of the managers and supervisors attended four-hour follow-up
                                courses.20

                                We determined that for the same period, approximately 90
                                craft employees attended the condensed four-hour workplace
                                violence awareness course21 and approximately 20 attended
                                one of the four-hour follow-up courses.22

                                The Guide states that it is equally important that all employees
                                be made aware of the existence of their local Threat
                                Assessment Team and the local systems put in place to
                                support zero tolerance. We found that the District had
                                informed employees about local systems and processes put in
                                place to support zero tolerance, such as procedures for
                                reporting threats. It had not, however, informed all employees
                                about the existence of the Threat Assessment Team. The
                                Senior Training Specialist stated that while zero tolerance,
                                workplace violence awareness, and the reporting of threats
                                had been covered during employee orientations, the existence
                                of the Threat Assessment Team was not specifically
                                discussed.


19
   These numbers are approximate because the data provided on approximately 35 former employees who had 

attended this training during this period did not identify the former employees by position. 

20
   This number is approximate because the data provided on an additional 40 former employees who had attended 

this training during this period did not identify the former employees by position. 

21
   See Footnote 15. 

22
   See Footnote 16. 




                                                       18
                                          Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the         ER-AR-99-002
 Impact on Workplace Climate and Operations



                               The Senior Training Specialist stated that violence awareness
                               training had not been conducted for all employees, including
                               craft employees, and that the District had only provided limited
                               workplace violence awareness training because it had not
                               received a mandate from USPS Headquarters requiring
                               further training.

Implementation of              A Crisis Management Plan is designed to provide advance
Crisis Management              preparation guidelines for the basic management of incidents
Plan                           of workplace violence. The Crisis Management Plan for
                               Incidents of Violence in the Workplace, Publication 107, May
                               1997, provides a model plan that outlines the minimum
                               essential procedures to be followed in the event of a violent
                               crisis.

                               While the District had established a Crisis Management Team
                               and a team notification process, we found that the District had
                               not complied with the remaining policies and procedures
                               required by Publication 107. Specifically, it had not:

                               •	 developed an up-to-date and complete team member
                                  assignment list;
                               •	 assigned roles and responsibilities to individual team
                                  members;
                               •	 developed a backup plan to obtain support from
                                  Headquarters, the Southeast Area, and a nearby Crisis
                                  Management Team;
                               •	 established and equipped a Crisis Command Center and
                                  alternate command site;
                               •	 ensured receipt of the local, customized crisis
                                  management plans at all Suncoast District facilities; and
                               •	 provided required training for Crisis Management Team
                                  members.

                               The District’s Acting Manager, Human Resources, who serves
                               as the Crisis Management Team leader, and Crisis Manager,
                               provided a variety of reasons why the Crisis Management
                               Plan had not been implemented. For example, he said that
                               he was reluctant to appoint key members prior to a crisis
                               because members may not be able to recall specific duties
                               when responding to the crisis. He also told us that he could
                               provide specific instructions to the team members once a




                                                     19
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the           ER-AR-99-002
 Impact on Workplace Climate and Operations



                               crisis occurred. He had not designated or equipped a Crisis
                               Command Center because he believed it should be located
                               near the crisis. He also said that other priorities had
                               prevented the development of the backup plan.

Crisis Management              The Crisis Management Plan requires that the districts assign
Team Member                    a minimum of eight key team members and alternates to
Assignments                    specific roles and responsibilities as outlined in the plan.

                               We found that the Suncoast District did not have an up-to-
                               date and complete team member assignment list, including
                               alternates, in its crisis management plan. Additionally, the
                               District had not assigned roles and responsibilities to each of
                               the required team members. A District official told us that he
                               had assigned the task of updating the team member
                               assignment list, but that the task had not been completed.

                               The lack of an up-to-date and complete team member
                               assignment list, with fully assigned roles and responsibilities
                               for each required team member, could result in the District not
                               achieving mandatory preparedness and critical tasks not
                               being accomplished in the event of a crisis.

Backup Crisis                  Publication 107 recognizes that a crisis may traumatize Crisis
Management Plan For            Management Team members and other involved personnel.
External Support               It states that a backup plan for external support
                               (Headquarters, Area, and nearby Crisis Management Team)
                               should be provided to carry out their duties and
                               responsibilities, if necessary. We determined that the
                               Suncoast District did not have a backup crisis management
                               plan. A District official told us that a backup plan for external
                               support had not been developed due to other priorities.

                               We believe that without such a plan, the Crisis Management
                               Team may not be able to fulfill their duties and responsibilities
                               in the event of a crisis.

Establishing and               The Plan requires that a crisis command center be pre-
Equipping a Crisis             selected and equipped in preparation for efficiently managing
Command Center and             a crisis. Further, it states that consideration must also be
Alternate Command              given to establishing an alternate command site in case the
Sites                          designated command center cannot be accessed.




                                                     20
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                            ER-AR-99-002
 Impact on Workplace Climate and Operations



                                  We determined that the District had not established a Crisis
                                  Command Center and an alternate command site. A District
                                  official told us that he had not done so because, in his opinion,
                                  the Crisis Management Team must be flexible, and able to
                                  move near the site of the incident, which may be hours away
                                  from District Headquarters.

                                  The lack of a designated and properly equipped Crisis
                                  Command Center and alternate command site may impair the
                                  ability of the Crisis Management Team to quickly mobilize and
                                  perform assigned Crisis Management Team duties. It may
                                  also result in confusion at the incident site and other locations
                                  regarding items such as the status of the Crisis Management
                                  Team support, chain of command, and media-related issues.

Crisis Management                 The Crisis Management Plan requires that the District
Plans Available at                leadership ensure that local, customized Crisis Management
Facilities                        Plans are made available to each facility. Additionally, it is
                                  intended that copies be provided to other non-district facilities,
                                  including area offices and Headquarters-related units.

                                  We project that about half (47 percent) of the 217 facilities
                                  have a copy of the District’s Crisis Management Plan.23
                                  Officials at some of the District facilities gave various reasons
                                  for not having a Crisis Management Plan on hand, such as
                                  they did not know there was a requirement for such plans, and
                                  that they could not locate the plans. Appendix C presents the
                                  sample results.

                                  If Crisis Management Plans are not on-site at the facilities,
                                  management may be unable to take the appropriate action in
                                  the event of a crisis.

Crisis Management                 Crisis management training involves initial Crisis Management
Training and                      Team training and crisis simulation. The initial training should
Preparedness                      cover the plan, employee issues, communications, media
Meetings                          relations, and maintenance of public image. The training is
                                  required within six months of the plan’s implementation.
                                  Regular crisis preparedness meetings should be held
                                  thereafter.


23
  We conducted a random sample review of 60 of 217 facilities in Suncoast District. The 217 facilities included all
post offices, stations, branches and postal stores. The processing and distribution centers are not included in the
projection.



                                                         21
                                            Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the          ER-AR-99-002
 Impact on Workplace Climate and Operations


                               Crisis simulation is designed to verify the efficiency and
                               effectiveness of the plan. Each District is urged to
                               validate the plan by conducting a full simulation and
                               either an electronic or notification simulation at least
                               annually.

                               According to a District official, the District: (1) was not aware
                               of whether it had conducted required initial Crisis
                               Management Team training, and (2) had not conducted
                               regular preparedness meetings and crisis simulation. Without
                               this training, the team is unprepared to mobilize and respond
                               effectively to an actual crisis.

                               In addition, an untrained team could inadvertently contribute
                               to:

                               •	 injury or loss of life;
                               •	 loss or destruction of mail or other property;
                               •	 delay or interruption of mail operations;
                               •	 litigation resulting from damages relating to such
                                  inefficiencies; and
                               •	 damage of the USPS public image.

Conclusion	                    On the basis of our audit, we believe that a potential for
                               violence exists in the Suncoast District facilities because
                               District officials have not implemented effective violence-
                               prevention and response programs as required by USPS
                               policies and procedures. The District’s lack of attention to
                               violence prevention efforts could adversely affect the
                               workplace climate and USPS operations. Violence increases
                               stress, inflicts emotional wounds, and lowers employee
                               morale. Organizationally, it diminishes credibility, decreases
                               productivity, creates work-specific tension, and damages
                               property.

Recommendations 	              The Vice President, Southeast Area Operations, should
                               immediately require that:

                               1. The District and the Threat Assessment Team fully
                                  implement the USPS policies and procedures regarding
                                  violence in the workplace, paying particular attention to the
                                  Threat Assessment Team Guide.




                                                     22
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the          ER-AR-99-002
 Impact on Workplace Climate and Operations


                               2. The District’s Zero Tolerance Policy be revised to mirror
                                  the USPS Zero Tolerance Policy. This revised policy must
                                  be communicated to all employees and enforced
                                  consistently.

                               3. Security Control Officers conduct physical security reviews
                                  of all District facilities as required by the Administrative
                                  Support Manual.

                               4. Attendance at violence awareness training for all craft
                                  employees, supervisors, and managers be mandatory.

                               5. The District and the Crisis Management Team fully
                                  implement the policies and procedures outlined in the
                                  Crisis Management Plan for Incidents of Violence in the
                                  Workplace.

                               6. A review be conducted of the events surrounding the two
                                  threats made by employees, as outlined in this report. The
                                  purpose of the review is to determine that the employees
                                  involved do not pose a potential threat to the workplace
                                  and other employees.

                               7. 	District management review the responses to all threat
                                   incidents made to the Threat Assessment Team to ensure
                                   that future recommendations made by Threat Assessment
                                   Team members are acted upon immediately.

Management’s                   The Area Vice President for the Southeast Area did not agree
Response                       with the OIG conclusion that the potential for violence exits in
                               the Suncoast District facilities because District officials have
                               not implemented effective violence prevention and response
                               programs. He stated, “There is no valid nexus between the
                               two to justify this conclusion.” He agreed, however, that
                               limited violence prevention efforts could adversely affect
                               workplace climate and, therefore, violence prevention and
                               response programs require improvement.

                               The Vice President did not agree there was a mandatory
                               requirement for attendance at violence awareness training for
                               all craft employees, supervisors, and managers. He stated
                               there may be a misinterpretation of Publication 108 and the
                               previous OIG audit referenced in the draft report regarding
                               mandatory violence awareness training. He said that
                               Publication 108 permissively states, “Supervisors . . . and



                                                     23
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the           ER-AR-99-002
 Impact on Workplace Climate and Operations


                               managers should be required to take 8 hours Workplace
                               Violence Awareness Program Training. . . .” He added that
                               Publication 108 does not reference or mandate training for
                               craft employees. He acknowledged that in the previous OIG
                               audit, management agreed to develop and distribute
                               appropriate craft awareness training, but to his knowledge,
                               there was no national management agreement to provide 8
                               hours of workplace violence awareness training to all craft
                               employees.

                               The Southeast Area Vice President stated the Area’s
                               commitment to the appropriate implementation of the policies
                               and procedures regarding violence prevention and facility
                               security reviews. He stated that the Area will assure that
                               adequate training to supervisors, managers, and craft
                               employees regarding violence awareness prevention is
                               provided and that appropriate zero tolerance policies are in
                               effect.

                               The Suncoast District Manager responded to all of the OIG
                               recommendations and told us that significant action has been
                               taken to implement the recommendations.

                               We have summarized management’s responses in the report
                               and included the full text of the comments in Appendices D, E,
                               and F.

Evaluation of                  Publication 108 states that a viable Workplace Violence
Management’s                   Prevention program is the first step in helping to ensure a
Response                       violence free workplace. It further states that “the most
                               effective way to respond to the growing problem of workplace
                               violence is to develop strategies to prevent it.” In this regard,
                               we believe there is a direct link between the existence of a
                               violence prevention program and the potential for violence.

                               Our previous OIG audit was directed to the Senior Vice
                               President, Labor Relations; Vice President, Human
                               Resources; and then Acting Vice President, Midwest Area
                               Operations and recommended that they mandate attendance
                               at violence awareness training for “all craft employee,
                               supervisors, and managers.” This recommendation was
                               based on the fact that craft employees in Milwaukee were not
                               offered violence awareness training, and supervisors were not
                               being required to attend training that was available.




                                                     24
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the                       ER-AR-99-002
 Impact on Workplace Climate and Operations


                                The USPS response to the recommendation in our earlier
                                audit for mandatory violence awareness training was that
                                “Manager and supervisor attendance will be mandated at
                                future violence awareness training. The initial draft of the craft
                                training is expected to be completed in mid-October [1998],
                                with the necessary coordination, development, and
                                deployment to follow.”

                                It is apparent that the recommendation made in our earlier
                                report was interpreted by the Southeast Area Vice President ,
                                to apply to the Milwaukee location only. In an interview with a
                                USPS Human Relations Specialist,24 we confirmed that the
                                mandatory craft training was implemented in the Milwaukee
                                District only. However, he advised us that mandatory training
                                is “tentatively being approved” for implementation nationwide.
                                We will address this issue in an upcoming report on our
                                review of the Threat Assessment Team process in the
                                Arkansas District, Southeast Area.

                                Although the Vice President did not agree with our overall
                                finding, we believe that the District’s planned or implemented
                                actions are responsive and address the issues identified in
                                this report.




24
 This Human Relations Specialist was responsible for responding to the earlier OIG recommendation regarding the
mandatory training for craft employees.



                                                       25
                                          Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the   ER-AR-99-002
 Impact on Workplace Climate and Operations




Major Contributors to
This Report:




                                                     26
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the   ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     27
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the   ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     28
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the   ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     29
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the   ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     30
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the             ER-AR-99-002
 Impact on Workplace Climate and Operations



                  STATISTICAL SAMPLING AND PROJECTIONS

Purpose of the Sampling

One of the objectives of this audit was to assess Suncoast District’s implementation of USPS
policy regarding physical security reviews and crisis management plans. In support of this
objective, the audit team employed a simple random attribute sample design that allows
statistical projection of responses from individual facilities within the Suncoast District.

Definition of the Audit Universe

The audit universe consisted of 217 facilities, post offices, stations, branches, and postal stores.
(Processing and Distribution Centers are not included.) The Suncoast District management was
the source of the universe data.

Sample Design and Modifications

The audit used a simple random sample design. Sixty facilities were randomly selected for
review, to provide a one-sided 95% confidence interval with a 5 percent precision, based on
auditor expectations of a high level of non-compliance.

Two attributes projected in this audit, however, exhibited higher levels of compliance than was
originally expected, producing less precision than was planned in the original sample design.

Statistical Projections of the Sample Data

All attributes are projected to a universe of 217 facilities. No differences in universe were
provided for FY 1997 versus FY 1998.

Attribute 1: Physical Security Review Conducted In FY 1997.

Based on projection of the sample results, we are 95 percent confident that no more than 9
percent of the Suncoast district facilities conducted a physical security review in FY 1997. The
unbiased point estimate is 5 percent, or 11 facilities.

Attribute 2: Physical Security Review Conducted In FY 1998.

Based on projection of the sample results, we are 95 percent confident that no more than 38
percent of the Suncoast district facilities conducted a physical security review in FY 1998. The
unbiased point estimate is 30 percent, or 65 facilities.

Attribute 3: Crisis Management Plan Received From District Management.

Based on projection of the sample results, we are 95 percent confident that no more than 56
percent of the Suncoast district facilities have a copy of the district crisis management plan.
The unbiased point estimate is 47 percent, or 102 facilities.




                                                     31                              Appendix A
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the    ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     32                      Appendix B
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the    ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     33                      Appendix C
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the    ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     34                      Appendix D
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the    ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     35                      Appendix D
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the    ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     36                      Appendix D
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the    ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     37                      Appendix E
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the    ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     38                      Appendix E
                                        Restricted Information
Review of the Violence Prevention Program in the Suncoast District and the    ER-AR-99-002
 Impact on Workplace Climate and Operations




                                                     39                      Appendix F
                                        Restricted Information
